In the
Supreme Court of the United States

JACQUELYN BOUAZIZI,
Petitioner,
v.

HILLSBOROUGH COUNTY CIVIL SERVICE BOARD, and
HILLSBOROUGH COUNTY
Respondent.

As required by the Supreme Court Rule 33.1(h), I certify that the petition for a writ
of certiorari contains 8,998 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d), and excluding the Proof of Service page
and Certificate of Compliance page, being not part of the body of this petition.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 26, 2021.

Sk
J§
7*
>

VENISE HINDS-OOHN
Notary Public
state of Florida
Comm#HH129433
Expires 5/20/202S

26

